OIG Audit Report GR-30-98-004
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Washington County, Virginia Sheriff's Department
 
GR-30-98-004
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of three grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Washington County, Virginia Sheriffs Department
(the Sheriffs Department). The Sheriffs Department received grants of: $58,921 to hire 1
officer under the Funding Accelerated for Smaller Towns (FAST) program; $124,661 to hire 2
officers under the Universal Hiring Program (UHP); and $73,371 under the Making Officer
Redeployment Effective (MORE) program. The purpose of the additional officers is to
enhance community policing efforts.

Our audit determined that:



The Sheriffs Department had no system in place to track redeployment; thus we considered
      $11,208 unallocable to the MORE grant. Further, until the Sheriffs Department develops a
      tracking system, we are recommending that $62,163 be withheld as funds to better use.




The Sheriffs Department did not backfill a position properly; therefore, we considered
      $3,122 unallocable to the FAST/UHP grant.




The Sheriffs Department appeared to be making a good faith effort to fill officer
      vacancies timely. However, we could not verify state law enforcement certifications for
      seven officers funded by the grants.




The Sheriffs Department had no intention of retaining the 2 UHP positions. 


These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our SCOPE AND METHODOLOGY appear in Appendix II.
#####